                                          UNITED STATES DEPARTMENT OF EDUCATION 

                                               OFFICE OF INSPECTOR GENERAL 

                                                                     REGION V 

                                                             111 NORTH CANAL, SUITE 940 

                                                               CHICAGO, ILLINOIS 60606 


                                                                   FAX: (312) 353-0244
    Audit                                                                                                                                     Investigation
(312) 886-6503                                                                                                                               (312) 353-7891




                                                                                                                   SEP 26 ZOOj
                                                                                   Control Number ED-OIG/AOS-D0030


             Mr. Charles 1. Wilson, Director
             C. 1. Wilson Academy II 

             2033 E. Southern Ave. 

             Phoenix, AZ 85040 


             Dear Mr. Wilson:

             This Final Audit Report presents the results of our audit of the C. 1. Wilson Academy
             II's (Academy) use ofD.S. Department of Education (ED) funds for the period July 1,
             2001, through June 30, 2002 (project period). The objective of our audit was to
             determine if the Academy expended ED funds according to the law and applicable
             regulations.

             Our audit disclosed that the Academy did not expend Public Charter Schools Program
             (PCSP) grant funds in accordance with the law_ The Academy was unable to show
             adequate support for $63,189 of the $160,000 in PCSP funds it received for the project
             period. The Academy was unable to show that it expended $20,277 in PCSP funds for
             the project period (the Academy's general ledger showed it spent only $139,723). In
             addition, the Academy was unable to provide adequate support for $42,912 (of $139,723)
             charged to the PCSP grant.

             We provided a draft of this report to the Academy. However, the Academy did not
             provide us with comments.

                                                               AUDIT RESULTS

             Finding No. 1 The Academy Could Not Support Its Use of $63,189 in PCSP Funds

                 During the project period, the Academy was unable to support its use 0[$63,189 in PCSP
                 funds received. The Academy drew down $160,000 in PCSP funds for the project
                 period. However, the Academy's general ledger showed only $139,723 of expenses
                 charged to the grant, a difference of $20,277. In addition, of the 10 expenses (totaling
                 $139,723) recorded in the Academy's general ledger, the Academy had no support or
                 inadequate support for 4 (totaling $42,912). The Academy was unable to provide any



                       Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operatlons_
Final Audit Report                                                                            ED-OIG/A05-D0030


supporting documentation for costs charged to the grant for “Renting Land and
Buildings” ($14,778). Further, the Academy did not provide adequate support for costs
charged to the grant for administrative oversight ($6,600), curriculum development
($7,766),1 and computer technicians ($13,768). The documentation provided in support
of the administrative oversight, curriculum development, and computer technicians costs
was inadequate because the Academy did not provide documentation such as
employment contracts, memoranda, or other documentation to describe the work
performed or the rate of compensation.

According to 34 C.F.R. § 75.702,2 a grantee shall use fiscal control and fund accounting
procedures that insure proper disbursement of and accounting for federal funds. Also, 34
C.F.R. § 75.730 states that a grantee shall keep records that fully show (a) the amount of
funds under the grant, (b) how the grantee used the funds, (c) the total cost of the project,
(d) the share of that cost provided from other sources, and (e) other records to facilitate
an effective audit.

Office of Management and Budget Circular A-122, Cost Principles for Non-Profit
Organizations, Attachment B, Section 39(b), states that in determining the allowability of
costs in a particular case, no single factor or any special combination of factors is
necessarily determinative. However, the adequacy of the contractual agreement for the
service (e.g., description of the service, estimate of time required, rate of compensation,
and termination provisions) is a relevant factor. Circular A-122, Attachment B, Section
7(m)(1), states the distribution of salaries and wages to awards must be supported by
personnel activity reports, except when a substitute system has been approved in writing
by the cognizant agency.

During the project period, the Academy did not have policies and procedures for
reconciling the amount of PCSP grant funds received to the amount spent. Also, at the
start of our audit in December 2002, the Academy’s current controller had only recently
started working for the Academy. At that time, he was not completely familiar with the
computer system and related codes for financial transactions. Additionally, we noted that
the 10 expenses charged to the PCSP grant in the Academy’s general journal consisted of
10 adjusting entries on June 30, 2002. The Academy’s use of general journal adjusting
entries to record expenses indicates the expenses were not recorded and charged to the
grant when they were incurred.

Without records showing how it used the funds, the Academy cannot demonstrate that it
used $63,189 ($20,277 + $42,912) for the intended purposes of the PCSP grant.




1
    Includes $1,035 in travel expenses related to curriculum development.

2
    Unless otherwise specified, all regulatory citations are to the July 1, 2001, volume. 



                                                         2
Final Audit Report	                                                                 ED-OIG/A05-D0030


Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for Innovation and Improvement, instruct
the Academy to

1.1 	      refund $63,189 to ED;

1.2 	      develop and implement policies and procedures that provide reasonable assurance
           it records expenses when incurred and regularly reconciles the amount of federal
           funds received to the amount spent; and

1.3 	      develop and implement policies and procedures that provide reasonable assurance
           that it maintains adequate supporting documentation for all costs charged to
           federal grants.

                                           BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter School Expansion Act
of 1998.3 Charter schools that receive a grant directly from the federal government must
also adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

The Academy received its charter from the Arizona State Board for Charter Schools and
opened in August 2001. The Academy applied for a PCSP grant and received its award
from ED on August 15, 2001. The grant provided the Academy with startup funding for
a three-year period. For the project period (July 1, 2001, through June 30, 2002), the first
year of funding, the Academy received $160,000.

                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the Academy expended ED funds
according to the law and applicable regulations. Our audit covered the award ED made
on August 15, 2001, for $160,000 and costs charged for the project period.

To accomplish our objective, we

•	         interviewed Academy personnel;


3
    The law was amended by the No Child Left Behind Act of 2001, Title V, Part B.


                                                     3
Final Audit Report	                                                             ED-OIG/A05-D0030


•	      reviewed accounting records and identified 10 expenses charged to the PCSP
        grant totaling $139,723; and
•	      compared the accounting records to supporting documentation (payroll
        information, invoices, and canceled checks) to determine if the 10 expenses
        charged to the PCSP grant were allowable and supportable.

We also relied, in part, on the Academy’s computer-processed general ledger maintained
using Peachtree© software. We compared the Academy’s general ledger data with that in
ED’s Central Automated Processing System. We also compared the Academy’s
supporting documentation (consisting of payroll information, invoices, and canceled
checks) with its general ledger data. Based on our tests, we concluded the data were
sufficiently reliable to be used in meeting the audit’s objective.

We performed our audit work between February and April 2003. We did not visit C.I.
Wilson Academy II. However, we did visit C.I. Wilson Academy I on December 11,
2002,4 and discussed the results of this audit with Academy officials on April 15, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                      STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the Academy’s management
control structure applicable to all federal awards because this step was not necessary to
achieve our audit objective. Instead, we relied on testing of the Academy’s compliance
with the PCSP law and applicable regulations. Our testing disclosed material weaknesses
in the Academy's management controls over ED awards. The Academy did not have
policies and procedures in place to provide reasonable assurance that it accounted for all
federal funds received and recorded expenses when they were incurred. In addition, the
Academy lacked policies and procedures that provide reasonable assurance that it
maintained supporting documentation for all costs charged to federal grants. These
weaknesses are discussed in the AUDIT RESULTS section of this report.

                              ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.




4
 C.I. Wilson Academy I and C.I. Wilson Academy II have common administrators and are located next to
one another in the same compound. We audited the PCSP funds awarded to C.I. Wilson Academy II after
determining C.I. Wilson Academy I could not support its use of all PCSP funds (Control Number ED-
OIG/A05-D0019).


                                                  4

Final Audit Report                                                       ED-OIG/A05-D0030


If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final action on the audit.

                       Jack Martin
                       Chief Financial Officer
                       Office of the Chief Financial Officer
                       400 Maryland Avenue, SW, Room 4E313
                       Washington, DC 20202

                       Nina Shokraii Rees, Deputy Under Secretary
                       Office of Innovation and Improvement
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 4W317
                       Washington, DC 20202

It is ED's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.

In accordance with the Freedom oflnformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.


                                              Sincerely,

                                              ~~,~
                                        .p. Richard J. Dowd
                                              Regional Inspector General
                                              for Audit




                                              5
